  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 THE EMERGENCY MEDICAL SERVICES
AUTHORITY OF OKLAHOMA CITY BILLED
  AND WAS PAID FOR ADVANCED LIFE
SUPPORT TRANSPORTS THAT WERE NOT
       MEDICALLY NECESSARY


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Patricia Wheeler
                                                 Regional Inspector General

                                                        November 2012
                                                        A-06-11-00050
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY


  The Emergency Medical Services Authority of Oklahoma City billed and Medicare Part B
  paid an estimated $365,889 for advanced life support emergency transport claims that did
  not meet Medicare coverage requirements.


WHY WE DID THIS REVIEW

Medicare Part B covers ambulance transports when a beneficiary’s medical condition, at the time
of transport, is such that any other type of transportation would endanger the beneficiary’s
health. We conducted this review because the Emergency Medical Services Authority of
Oklahoma City (EMSA) was one of the top billers of advanced life support (ALS) emergency
transports in 2010.

Our objective was to determine whether ALS emergency transports billed by EMSA during 2010
met Medicare coverage requirements.

BACKGROUND

Medicare pays for different levels of ambulance transports. These levels of transport are
differentiated by the qualifications and training of the crew and the equipment and supplies
available on the ambulance. In Oklahoma, a paramedic emergency medical technician must be
on the ambulance during an ALS transport.

For ambulance transports to be covered by Medicare, the beneficiary must be transported, the
transport must be medically necessary, and the condition of the beneficiary would not allow
transportation by other means. Medicare covers an emergency ambulance transport when
provided after the sudden onset of a medical condition with acute symptoms of such severity that
the absence of immediate medical attention could place the beneficiary’s health in serious
jeopardy.

If a transport does not meet Medicare coverage requirements, ambulance suppliers may seek
payment from the beneficiary or a secondary insurance payer. These other payers may require a
denial from Medicare before paying for a transport. Ambulance suppliers can seek denial of
Medicare payment by adding modifier GY on the Medicare claim to denote that the transport
was for a noncovered service.

EMSA was established in Tulsa, Oklahoma, in 1977 and began providing service to Oklahoma
City, Oklahoma, in 1990. EMSA is Oklahoma’s largest provider of prehospital emergency
medical care, providing ambulance transports to residents in central and northeast Oklahoma.

TrailBlazer Health Enterprises, LLC (TrailBlazer), is a Medicare administrative contractor
(MAC) that administers the Medicare program under contracting arrangements with the Centers
for Medicare & Medicaid Services. TrailBlazer is the Medicare Part B MAC for Oklahoma.


Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                 i
HOW WE CONDUCTED THIS REVIEW

Our review focused on 21,855 Medicare Part B ALS emergency ambulance claims with dates of
service during 2010. In total, EMSA billed for and was paid $7,435,749 for these claims. We
selected a simple random sample of 100 claims and requested that TrailBlazer perform a medical
review to determine if the claims met Medicare coverage requirements. We used the medical
review results to estimate the number of improperly billed and paid claims and the associated
overpayment.

WHAT WE FOUND

EMSA billed and Medicare paid for ALS emergency transports that did not meet Medicare
coverage requirements. Of the 100 claims in our random sample, EMSA appropriately billed
and was paid for 90 of the claims. However, EMSA inappropriately billed and was paid for 10
ALS emergency transports that were not medically necessary, and EMSA did not include the GY
modifier on the claims. Based on the sample results, we estimated that EMSA improperly billed
for at least 1,210 ALS emergency transports with an associated overpayment of at least
$365,889.

WHAT WE RECOMMEND

We recommend that EMSA:

        refund $365,889 to the Federal Government,

        strengthen its policies and procedures to ensure compliance with Medicare coverage
        requirements, and

        use modifier GY on Medicare claims for ambulance transports that do not meet Medicare
        coverage requirements.

EMSA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

EMSA disagreed with our findings that the 10 ALS emergency transports were not medically
necessary and stated that all of the transports should have been covered because they were
emergencies. EMSA’s comments included summary information about each of the 10 denied
claims. We redacted the personally identifiable information and included EMSA’s comments as
Appendix D.

The information EMSA provided in its comments about the 10 denied claims was an incomplete
summary of the medical records related to the transports and sometimes conflicted with the
medical records. The summary information, which was taken from EMSA’s medical records,
was appropriately considered during TrailBlazer’s medical review. As such, we stand by our
reported findings and recommendations.


Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)              ii
                                                    TABLE OF CONTENTS

                                                                                                                                           Page

INTRODUCTION.......................................................................................................................1

           Why We Did This Review ..............................................................................................1

           Objective ..........................................................................................................................1

           Background .....................................................................................................................1
                 The Medicare Program .........................................................................................1
                 Levels of Ambulance Transport............................................................................1
                 Medicare Requirements for Ambulance Transports .............................................1
                 Medicare Payments for Ambulance Transports ....................................................2
                 The Emergency Medical Services Authority of Oklahoma City .......................... 2
                 TrailBlazer Health Enterprises, LLC ....................................................................2

           How We Conducted This Review ..................................................................................2

FINDINGS ...................................................................................................................................3

RECOMMENDATIONS............................................................................................................3

EMSA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ..............4

APPENDIXES

           A: Audit Scope and Methodology.................................................................................5

           B: Statistical Sampling Methodology ...........................................................................7

           C: Sample Results and Estimates .................................................................................8

           D: Emergency Medical Services Authority Comments ..............................................9




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                                                                iii
                                         INTRODUCTION

WHY WE DID THIS REVIEW

Medicare Part B covers ambulance transports when a beneficiary’s medical condition, at the time
of transport, is such that any other type of transportation would endanger the beneficiary’s
health. The Office of Inspector General has identified ambulance transports as vulnerable to
fraud, waste, and abuse. We conducted this review because the Emergency Medical Services
Authority of Oklahoma City (EMSA) was one of the top billers of advanced life support (ALS)
emergency transports in 2010.

OBJECTIVE

Our objective was to determine whether ALS emergency transports billed by EMSA during 2010
met Medicare coverage requirements.

BACKGROUND

The Medicare Program

The Medicare program provides health insurance for people aged 65 and over and those who are
disabled or have permanent kidney disease. Medicare is administered by the Centers for
Medicare & Medicaid Services (CMS), an agency within the Department of Health and Human
Services. Medicare Part B covers medically necessary services such as doctors’ services,
outpatient care, home health services, and other medical services, including ambulance
transports.

Levels of Ambulance Transport

Medicare pays for different levels of ambulance transports. These levels of transport are
differentiated by the qualifications and training of the crew and the equipment and supplies
available on the ambulance. For example, to provide an ALS-level service, an ambulance must
be equipped with specialized equipment, such as a defibrillator, intravenous administration
equipment, and certain medication. In Oklahoma, a paramedic emergency medical technician
must be on the ambulance during an ALS transport.

Medicare Requirements for Ambulance Transports

For ambulance transports to be covered by Medicare, the following requirements must be met:

        the beneficiary must be transported,

        the transport must be medically necessary and reasonable for the condition of the
        beneficiary, and

        the condition of the beneficiary would not allow transportation by other means.


Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                1
Medicare covers emergency ambulance transports, which should be provided after the sudden
onset of a medical condition that manifests itself with acute symptoms of such severity that the
absence of immediate medical attention could reasonably be expected to:

        place the beneficiary’s health in serious jeopardy,

        result in serious impairment of bodily functions, or

        result in serious dysfunction of any bodily organ or part.

In addition, the mileage for ambulance transports is covered when the transport is to the nearest
appropriate facility.

Medicare Payments for Ambulance Transports

Suppliers of ambulance transports submit claims for payment to Medicare administrative
contractors (MAC). Claims contain information such as beneficiary identifiers (e.g., name and
Medicare number), the origin and destination of the ambulance transport, mileage, beneficiary
diagnosis, and type of service provided (e.g., ALS).

In Oklahoma, ambulance suppliers are required to respond when called. If a transport does not
meet Medicare coverage requirements, ambulance suppliers may seek payment from the
beneficiary or a secondary insurance payer. These other payers may require a denial from
Medicare before paying for a transport. Ambulance suppliers can seek denial of Medicare
payment by adding modifier GY on the Medicare claim to denote that the transport was for a
noncovered service.

The Emergency Medical Services Authority of Oklahoma City

EMSA was established in Tulsa, Oklahoma, in 1977 and began providing service to Oklahoma
City, Oklahoma, in 1990. EMSA is Oklahoma’s largest provider of prehospital emergency
medical care. It provides ambulance transports to residents in central and northeast Oklahoma.
EMSA is operated as a public trust authority of Oklahoma City government.

TrailBlazer Health Enterprises, LLC

TrailBlazer Health Enterprises, LLC (TrailBlazer), is an MAC that administers the Medicare
program under contracting arrangements with CMS. TrailBlazer is the Medicare Part A and Part
B Jurisdiction 4 MAC for Colorado, New Mexico, Oklahoma, and Texas.

HOW WE CONDUCTED THIS REVIEW

Our review focused on 21,855 Medicare Part B ALS emergency ambulance claims with dates of
service during 2010. In total, EMSA billed for and was paid $7,435,749 for these claims,
including the mileage. We selected a simple random sample of 100 claims and requested that
TrailBlazer perform a medical review to determine if the claims met Medicare coverage


Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                     2
requirements. We used the medical review results to estimate the number of improperly billed
and paid claims and the associated overpayment.

We assessed the reliability of the data from CMS’s National Claims History file by electronically
testing required data elements and by checking the basic reasonableness of the data against
another source. We determined that these data are sufficiently reliable for the purposes of this
report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                              FINDINGS

EMSA billed and Medicare paid for ALS emergency transports that did not meet Medicare
coverage requirements. Of the 100 claims in our random sample, EMSA appropriately billed
and was paid for 90 of the claims. However, EMSA inappropriately billed and was paid for 10
ALS emergency transports that were not medically necessary, and EMSA did not include the GY
modifier on the claims. Medicare paid EMSA $3,349 for the 10 ALS emergency transports that
were not medically necessary. Based on the sample results, we estimated that EMSA improperly
billed for at least 1,210 ALS emergency transports with an associated overpayment of at least
$365,889.

Section 1861(s)(7) of the Social Security Act states that when other means of transport can be
utilized without endangering the individual’s health (whether or not such other transportation is
actually available), no payment may be made for ambulance service. Regulations (42 CFR §
410.40(d)) state that Medicare covers ambulance services only if they are furnished to a
beneficiary whose medical condition is such that other means of transportation are
contraindicated. The beneficiary’s condition must require both the ambulance transportation
itself and the level of service provided for the billed service to be considered medically
necessary. Failure to meet coverage requirements means that the beneficiary’s condition did not
warrant transportation by ambulance; rather, the beneficiary could have safely been transported
by other means, such as taxi, private car, wheelchair van, or other type of vehicle.

                                      RECOMMENDATIONS

We recommend that EMSA:

        refund $365,889 to the Federal Government,




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                 3
        strengthen its policies and procedures to ensure compliance with Medicare coverage
        requirements, and

        use modifier GY on Medicare claims for ambulance transports that do not meet Medicare
        coverage requirements.

EMSA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

EMSA disagreed with our findings that the 10 ALS emergency transports were not medically
necessary and stated that all of the transports should have been covered because they were
emergencies. However, EMSA indicated that 2 of the 10 transports should have been
downgraded to a lower level of ambulance transport. EMSA’s comments included summary
information about each of the 10 denied claims, including beneficiary names. We redacted the
personally identifiable information and included EMSA’s comments as Appendix D.

The information EMSA provided in its comments about the 10 denied claims was an incomplete
summary of the medical records related to the transports and sometimes conflicted with the
medical records. For example, EMSA stated that beneficiary No. 4 was bed-confined with acute
weakness and uncontrolled diarrhea. The medical records indicated that this beneficiary was not
bed-confined, but rather walked to the door and to the stretcher, and that her chief complaint was
that she had diarrhea for the past 3 weeks, which is not an acute condition. The summary
information, which was taken from EMSA’s medical records, was appropriately considered
during TrailBlazer’s medical review. As such, we stand by our reported findings and
recommendations.




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                  4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review focused on 21,855 Medicare Part B ALS emergency ambulance claims with dates of
service during calendar year 2010. EMSA was paid a total of $7,435,749 for these claims,
including the mileage.

We limited our review of EMSA’s internal controls to those that were applicable to the sampled
ALS emergency claims because our objective did not require an assessment of all internal
controls related to EMSA.

We conducted our fieldwork at EMSA offices in Oklahoma City, Oklahoma, from December
2011 through June 2012.

METHODOLOGY

To accomplish our objective, we:

        reviewed applicable Federal and State laws, regulations, and guidance;

        held discussions with EMSA personnel, CMS headquarters staff, and TrailBlazer medical
        review officials to gain an understanding of the Medicare ambulance benefit;

        used CMS’s National Claims History file to identify Medicare Part B claims for which
        EMSA was paid for ALS emergency transports during our audit period;

        identified 21,855 Medicare Part B ALS emergency ambulance claims for which EMSA
        received $7,435,749 in payments, which included the related mileage payment for the
        transports;

        selected a simple random sample of 100 paid ALS emergency claims;

        obtained and reviewed records from EMSA that supported the 100 sampled claims;

        requested that TrailBlazer perform a medical review to determine whether the claims met
        Medicare coverage requirements and sent to TrailBlazer the records we obtained from
        EMSA; and

        used the results of TrailBlazer’s medical review to estimate the number of improperly
        billed and paid claims and the associated overpayment.

We assessed the reliability of the data from CMS’s National Claims History file by electronically
testing required data elements and by checking the basic reasonableness of the data against
another source. We determined that these data are sufficiently reliable for the purposes of this
report.


Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                  5
                                                                                  APPENDIX A

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                6
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of EMSA’s ALS emergency ambulance services and related mileage
during calendar year 2010.

SAMPLING FRAME

We removed from the population 48 ALS emergency claims that we reviewed during survey
work. The sampling frame consisted of the remaining 21,855 ALS emergency claims and the
related mileage with Medicare payments to EMSA totaling $7,435,749.

SAMPLE UNIT

The sample unit was a paid ALS emergency ambulance claim for ambulance services.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the number of ALS emergency claims
billed inappropriately and the associated overpayment.




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)               7
                   APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                               Sample Results


    Frame         Value of Frame          Sample         Value of           Number of     Value of
     Size                                  Size          Sample             Medically     Medically
                                                                           Unnecessary   Unnecessary
                                                                           Ambulance     Ambulance
                                                                             Claims        Claims

    21,855          $7,435,749             100            $33,836                10        $3,349




                Estimated Value of Medically Unnecessary Ambulance Claims
                    (Limits Calculated for a 90-Percent Confidence Interval)


                             Point Estimate                         $731,946


                              Lower Limit                           $365,889


                                 Upper Limit                        $1,098,002




               Estimated Number of Medically Unnecessary Ambulance Claims
                    (Limits Calculated for a 90-Percent Confidence Interval)


                             Point Estimate                           2,186


                              Lower Limit                             1,210


                                 Upper Limit                          3,574




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                        8
   APPENDIX D: EMERGENCY MEDICAL SERVICES AUTHORITY COMMENTS




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)   9
                                                                                        APPENDIX D




                      *




.       *Office of Inspector General note: We redacted the names of each of the 10 beneficiaries
        listed because it is personally identifiable information. We also redacted the names of two
        beneficiaries listed on the last page of EMSA’s comments.

Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)                       10
                                                                                  APPENDIX D




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)           11
                                                                                  APPENDIX D




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)           12
                                                                                  APPENDIX D




Medicare Advanced Life Support Ambulance Transports in Oklahoma (A-06-11-00050)           13
